HHS/OIG-Audit--"Review of The Maryland Department Of Health And MentalHygiene's (State Agency) Reimbursements For Outpatient Clinical Laboratory Services,(CIN:A-03-96-00200)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of The Maryland Department Of Health And Mental Hygiene's (State Agency) Reimbursements For Outpatient Clinical
Laboratory Services." (A-03-96-00200)
August 7, 1996
Complete
Text of Report is available in PDF format (1.04 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the adequacy of procedures and controls over the processing of Medicaid payments
to providers in Calendar Years (CY) 1993 and 1994 for outpatient clinical laboratory services involving chemistry tests.
Our review disclosed that the State agency lacked adequate procedures or controls to ensure that Medicaid reimbursements
for chemistry tests did not exceed amounts recognized by the Medicare program, as required by Section 6300 of the State
Medicaid Manual. Projecting the results of our statistical sample over the population using standard statistical methods,
we estimate that the State agency overpaid providers $254,932 (Federal share $127,466).